GR-40-98-028
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Indian Creek, Florida, Public Safety Department
 
GR-40-98-028
September 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of three grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the Indian Creek, Florida, Public Safety Department,
(grantee). The grantee received: (1) a grant of $75,000 (96-UM-WX-03 82) to hire or rehire
one additional sworn law enforcement officer under the Universal Hiring Program (UHP), (2)
a $75,000 supplement to the UHP grant to hire or rehire one additional sworn officer, (3)
a $150,000 supplement to the UHP grant to hire or rehire two additional sworn officers,
and (4) a grant of $24,186 (97-CM-WX-0625) to redeploy one officer full-time equivalent
(FTE) under the Making Officer Redeployment Effective (MORE) program. The purpose of the
additional officers is to enhance community policing efforts.

In brief, the grantee:



Claimed $38,637 in salaries and fringe benefits that either was: (1) not supported by
      employee time records, (2) more than the actual costs incurred, or (3) above the amounts
      approved by the Office of Justice Programs (OJP) under the UHP grant.




Claimed $6,294 in salaries and fringe benefits that was not incurred under the MORE
      grant.




Did not track the hours that officers were redeployed under the MORE grant. As a result,
      we could not determine if one officer FTE was redeployed; therefore, the remaining
      reimbursements of $11,847 are unsupported.




Did not: (1) submit the Department Initial Report to COPS, (2) submit Financial Status
      Reports timely to the OJP, and (3) correctly report total program outlays and Federal
      share of outlays.


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####